No.

IN THE SUPREME COURT OF THE UNITED STATES
TAREK FARAG,
Plaintiff-Petiit ioner

) Appellate Case No.:
)

V.
ALIWAQAS, and
Other Unknown Defendant,
Defendant-Respondents

2-20-0284

) Circuit Court No.:
2020L44
)
) The Honorable
) ROBERT ROHM,
Judge Presiding
)

CERTIFICATE OF FILING AND SERVING PLAINTIFF’S PETITIONER
PETITION FOR VmiT OF CERTIORARI TO TH5 UNITED STATES SUPREME COURT
To: Attorney Mark Silverman: mark@depositIaw.com
PLEASE TAKE NOTICE that on March 8, 2021, the undersigned filed PLAINTIFF-PETITIONER ‘S
PETITION FOR WRTr OF CERTIORARI to the UNITED STATES SUPREME COURT, along with $300
fees, with the Clerk of the Supreme Court by first class mail postage prepaid.
Respectfully submitted,
Tarek Farag, pro se
411 N. Warwick Ave.,
Westmont, IL 60559
Phone: 630 709 3965
Email: tarekfarag@comcast.net

Tarek Farag
Date: March 8, 2021

PROOF OF SERVICE
On 3/8/2021,1, Tarek Farag on oath state that I served the foregoing notice of filing and serving,
along with PLAINTIFF-PETITIONER’S PETITION FOR WRIT OF CERTIORARI to the United States
Supreme Court by first class mail and to Defendant-Respondent by email to his stated address
above.
Date: March 8, 2021

(signature)

VERIFICATION BY CERTIFICATION
I declare under penalty of perjury (28 USC § 1746) that the foregoing is true and correct.

Executed on: March 8,2021

(signature)

25

No.
IN THE SUPREME COURT OF THE UNITED STATES
TAREK FARAG,
PlaintifT-Petiit ione r

) Appellate Case No.:
)

2-20-0284

) Circuit Court No.:
V.

ALIWAQAS, and
Other Unknown Defendant,
Defendant-Respondents

)

20201,44

) The Honorable
) ROBERT ROHM,
)
Judge Presiding
CERTIFICATE OF WORD COUNT

The undersigned certifies that the number of words excluding the questions presented, the list of
parties, the table of contents, the table of cited authorities, the appendix, and the verbatim quotations
required under Rule 14.1(f) and Rule 24.1(f), are 7770.
Respectfully submitted,
Tarek Farag, pro se
411 N. Warwick Ave..
Westmont, IL 60559
Phone: 630 709 3965
Email: tarekfarag@comcast.net

Tarek Farag
Date: March 8, 2021

Verification bv Certification
I declare under penalty of perjury (28 USC § 1746) that the foregoing is true and correct.

Executed on: March 8,2021

(signature)

24

